UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




                      Travel Cards


                Report No. OIG-AMR-66-11-01




                                              March 23, 2011
                                                CONTENTS
EXECUTIVE SUMMARY .................................................................................. 1
BACKGROUND ............................................................................................... 2
OBJECTIVE, SCOPE, AND METHODOLOGY ................................................... 2
FINDINGS ....................................................................................................... 3
TRAVEL CARD MANAGEMENT PLAN .............................................................. 4
    Recommendation ....................................................................................... 6
MONITORING ................................................................................................. 6
    Recommendations...................................................................................... 8
    Management’s Comments .......................................................................... 8
    Office of Inspector General Response.......................................................... 8
CREDIT CHECKS............................................................................................ 8
TRAINING ....................................................................................................... 9
    Recommendation ..................................................................................... 10
SEPARATED EMPLOYEES ............................................................................ 10
    Recommendation ..................................................................................... 11
IMPROPER USE ............................................................................................ 11
    Recommendation ..................................................................................... 14
MANDATORY USE ........................................................................................ 14
    Recommendation ..................................................................................... 15
REBATES...................................................................................................... 15

APPENDIX

       Memorandum from the Finance Officer, Response to Draft Audit Report –
       Travel Card (OIG-AMR-66), dated March 15, 2011
National Labor Relations Board
Office of Inspector General

EXECUTIVE SUMMARY

National Labor Relations Board employees are required to use the Government
contractor-issued travel credit card for all expenses incurred when traveling on
official Government business. The following report details our efforts to review
the National Labor Relations Board’s travel card program.

For the purpose of our review, we wanted to ensure that the travel card
program met Office of Management and Budget requirements, determine
whether the Finance Branch is appropriately administering the travel card
program, and review the travel card transactions from a different perspective
than is currently being done by the Finance Branch.

We generally found that the National Labor Relations Board’s travel card
program did not meet the requirements of the Office of Management and
Budget. This is largely due to the fact that the Finance Branch did not have a
travel card management plan. Although we also found that the Finance
Branch's monitoring of the employee travel card use is adequate, other aspects
of the travel card program could be improved.

Our review of employee travel card transactions found 534 questionable
transactions. The monitoring by the Finance Branch generally focused on
reviewing transactions in a set of merchant category codes and reviewing
reports related to delinquent accounts. Rather than duplicating those efforts,
our testing of transactions focused on the timing and location of the travel card
transactions and a different variety of merchant category codes. Through this
testing, we identified 464 transactions that appear to be improper because the
employee was not in a travel status and 41 transactions that appear to be
unrelated to official travel that occurred while the employee was in a travel
status. We also identified 29 cash advances that appear to be unrelated to
official travel. All of the questionable transactions that we identified will be
reviewed for employee misconduct.

We are making eight recommendations that we believe will assist in managing
the travel card program and strengthen its internal controls.

In comments to the draft audit report, management did not comment on our
findings and agreed with seven of the eight recommendations. Management
disagreed with our recommendation to refer all past due cardholders and
suspected travel card misuse to the Special Counsel to the General Counsel.
Management’s comments are included as an appendix to the audit report.


                                      1
BACKGROUND

             National Labor Relations Board’s (NLRB or Agency)
             personnel are required to use the Government contractor-
             issued travel credit card for all expenses incurred when
             traveling on official Government business. At the NLRB, the
             travel card is issued by Citibank and the travel card program
             is administered by the Finance Branch.

             The travel card may be used to obtain cash advances; to
             purchase airline tickets, lodging, and rental cars; and for
             other travel-related expenses. Travel cards may not be used
             for personal expenses while on official travel.

             During Fiscal Year (FY) 2010, 780 employees used the travel
             cards for 11,857 merchant transactions totaling almost $1.2
             million, and 66 employees used the travel cards to obtain
             192 cash advances totaling more than $27,000.


OBJECTIVE, SCOPE, AND METHODOLOGY

             The objective of this audit was to determine whether the
             NLRB's travel card program is operated in accordance with
             applicable laws, regulations, and Agency policies and
             whether controls are sufficient to prevent or detect waste,
             fraud, and abuse. Our scope was travel card activity during
             FY 2010.

             We reviewed Governmentwide laws, regulations, and policy
             documents related to the use of travel cards and travel
             expenses. We also reviewed Agency policies and procedures
             and interviewed Agency personnel to identify operating
             procedures.

             We reviewed the Finance Branch’s activity related to
             monitoring travel card transactions and delinquencies,
             performing credit checks, providing required training for new
             cardholders, and canceling accounts of separated employees.
             We also reviewed travel card rebate activity.

             We reviewed travel card activity to determine whether
             employees were using the travel card for transactions that
             were not related to official travel. We tested travel card
             transactions to determine if employees were on official travel
             at the time of the transaction and whether the merchant


                                2
           would have provided travel-related goods or services. We
           also tested transactions that occurred on weekends and
           holidays, in or near the employee’s official duty station, and
           charges to merchant category codes (merchant codes)
           inconsistent with official travel. We reviewed travel card
           activity related to cash advances to determine whether the
           cash advances were made during or around the time of
           official travel and if the amount was reasonable as compared
           to the travel reimbursement.

           We conducted this performance audit in accordance with
           generally accepted government auditing standards during
           the period June 2010 through February 2011. Those
           standards require that we plan and perform the audit to
           obtain sufficient, appropriate evidence to provide a
           reasonable basis for our findings and conclusions based on
           our audit objectives. We believe that the evidence obtained
           provides a reasonable basis for our findings and conclusions
           based on our audit objectives. We conducted this audit at
           NLRB Headquarters in Washington, DC.


FINDINGS

           We found that although the Agency has policies related to
           the use of the travel card, it had not developed a
           management plan for the travel card as required by the
           Office of Management and Budget (OMB). We also found
           that the Agency does not have a travel card training
           program, Finance Branch was not always canceling cards of
           separated employees, and employees did not always use
           their cards when on official travel.

           We also found that the Finance Branch is monitoring travel
           card use and is generally checking the creditworthiness
           when it sets travel card credit limits.

           We identified employees who may have improperly used their
           travel card for personal expenses or otherwise. We referred
           these employees for investigatory review.




                              3
TRAVEL CARD MANAGEMENT PLAN

            OMB Circular A-123, Appendix B, requires each agency to
            develop and maintain a charge card management plan,
            update the plan at least annually, and submit a copy of their
            plan to OMB on an annual basis, not later than January 31
            of each calendar year.

            In response to our request for a copy of the NLRB travel card
            management plan, Finance Branch officials initially stated
            that their travel card policies are identified in Administrative
            Policy Circular (APC) 08-04, NLRB Travel Guidance, dated
            August 6, 2008. They also stated that the annual reporting
            requirement was met by the Federal Managers’ Financial
            Integrity Act Statement of Assurance that is included in the
            Agency’s Performance and Accountability Report. Finance
            Branch officials later stated that the NLRB does not have a
            travel card management plan and had not met the reporting
            requirement.

            Because of the apparent confusion regarding the
            requirement for a management plan, we contacted the OMB
            official responsible for the travel card program and confirmed
            our understanding that agencies are required to submit
            charge card management plans annually. The OMB official
            also reviewed the FY 2010 files and confirmed that OMB did
            not have a copy of the NLRB's management plan.

            Although APC 08-04 is not a substitute for a management
            plan, we compared it to OMB requirements to determine
            what additional policies and procedures, if any, would need
            to be developed. The table below shows that comparison:




                                4
                    Comparison of OMB Requirements to
                          NLRB Travel Guidance

                                                                Included in
                   OMB Requirements                             NLRB Travel
                                                                 Guidance
Identification of key management officials and their
responsibilities for each charge card program. These
officials will include, but are not limited to,
                                                                    No
Agency/Organization Program Coordinator (A/OPC),
Approving Officials, or other equivalent officials, and other
accountable/billing officials
Establishment of a process for formal appointment of
                                                                    Yes
cardholders and approving officials, where applicable
Implementation of a process to ensure the credit
worthiness of new charge card applicants consistent with            Yes
chapter 6 of this guidance
Description of agency training requirements                         No
Management controls, policies, and practices for ensuring
appropriate charge card and convenience check usage and
                                                                    No
oversight of payment delinquencies, fraud, misuse, or
abuse
Establishment of appropriate authorization controls                 No
Implementation of policies and practices to ensure
                                                                    Not
strategic sourcing consistent with Chapter 8 of this
                                                                 Applicable
Guidance
Explanation of how available reports and data are used for
monitoring delinquency, misuse, performance metrics,
                                                                    No
spend analysis, and other relevant transactions and
programs management issues
Documentation and record retention requirement                      No
Recovery of travel cards when employees terminate
employment, and if applicable, when an employee moves               No
to a different organization
Description of how the agency will ensure the ongoing
effectiveness of the actions taken pursuant to this
guidance, including, but not limited to, evaluating the
effectiveness of training (Chapter 3), risk management              No
controls (Chapters 4 and 6), refund management controls
(Chapter 7), strategic sourcing policies (Chapter 8), and
tax recovery efforts (Chapter 11)




                                       5
             At the exit conference on February 8, 2011, Finance Branch
             officials stated that they submitted a travel card
             management plan to OMB. A copy of the travel card
             management plan was provided to the OIG after the exit
             conference. After receiving the travel card management
             plan, we obtained information documenting that it was sent
             to OMB on February 7, 2011. We will review the plan to
             determine whether it meets OMB requirements and whether
             it was implemented during the audit follow-up process.

Recommendation

             We recommend that the Finance Branch Chief:

             1. Implement a written travel card management plan that
                meets OMB requirements.


MONITORING

             The Finance Branch is monitoring travel card use, but the
             procedures used by the Finance Branch were not
             documented in written policies and procedures. Such
             documentation is required to meet the standards for proper
             internal control.

             The process described by the Finance Branch involved using
             reports available from Citibank that identify delinquent
             accounts and transactions that were assigned certain
             merchant codes.

             Citibank has a monthly report that identifies employees with
             delinquent accounts and provides information regarding the
             number of days the account is past due, the amount past
             due, and the account balance. Finance Branch officials
             stated that they use this report to determine when an
             account was more than 60 days past due and that they then
             send an e-mail message to the employee to prompt the
             employee to make a payment. The procedures described to
             us did not include informing the employee’s supervisor or
             Agency management when the account is more than 60 days
             past due.

             We obtained the past due reports for FY 2010 and reviewed
             the e-mail messages sent to the employees. We found that
             all 13 employees with delinquent accounts were sent e-mail


                                6
messages by the Finance Branch. Of those 13 accounts,
Citibank suspended 11 accounts until the balance was no
longer past due and canceled two accounts when the
balances were not paid. Eventually, all past due amounts
were paid in full either by the employee or a collection
agency.

To determine whether the travel cards were being used for
non-travel related items, the Finance Branch queries the
Citibank database monthly for transactions that have
merchant codes that they determined were inconsistent with
official travel. These codes include items such as
department stores, insurance sales, dry cleaners, book
stores, office supply stores, grocery stores, drug stores, and
motion picture theaters. The Finance Branch officials then
select transactions and question the employees about his or
her travel card activity. The selected employees receive an e-
mail message from a Finance Branch official requesting an
explanation of the purchase.

In FY 2010, Finance Branch officials identified 105
questionable transactions that resulted in an e-mail message
being sent to a cardholder. As a result of the e-mail
messages, the Finance Branch found 68 transactions were
official in nature and 37 were improper. Of the improper
transactions, 8 were referred to the Special Counsel for
further review in the normal course of business. An
additional 25 improper transactions were referred to the
Special Counsel en masse in October 2010. For the
remaining 4 transactions, it appears that there was no
referral to the Special Counsel.

We generally found that the review of transactions by
merchant codes is operating sufficiently as an internal
control. We question, however, the determination that 13
transactions were a proper use of the travel card. Those
transactions were related to official business when the
employee was not in travel status. The transactions
included conference and training fees, professional liability
insurance, and case handling expenses. As noted again
below, the Federal Travel Regulation does not give the NLRB
the discretion to allow the employees to use the travel card
for these types of charges.




                   7
Recommendations

                We recommend that the Finance Branch Chief:

                2. Cease allowing the use of the travel card for expenses that
                   are not related to official travel.

                3. Refer all past due cardholders and suspected travel card
                   misuse to the Special Counsel.

                4. Document the delinquent account and merchant category
                   code reviews in a travel card management plan.

Management’s Comments

                Management disagreed with Recommendation 3.
                Management’s response stated that they believe it would be
                inappropriate and unnecessary to refer initial questions
                regarding uses of the travel card to another party without
                first allowing the employee to resolve the issue or permitting
                the Division Director or Office Head to determine the best
                course of action to take regarding an employee, in
                consultation with the appropriate individuals.

Office of Inspector General Response

                We do not agree with management. The review by the
                Special Counsel will ensure that managers across the Agency
                apply the same standards in determining if suspected travel
                card misuse involves misconduct. In our view, the Special
                Counsels have developed an expertise in the area of travel
                card misuse that should be utilized through a collaborative
                environment to address these matters. We are unaware of
                any adverse consequences that could arise from taking the
                recommended action to avoid situations that may cause
                disparate treatment of Agency personnel.


CREDIT CHECKS

                Agencies are required to assess the creditworthiness of an
                employee before the employee is issued a travel card.
                Agencies are also required to set a policy for restricting card
                use for employees with a credit score less than 660. The
                NLRB's policy is that employees who have a credit score of



                                    8
           less than 660 receive a $1,000 credit limit and $200 cash
           advance withdrawal total during a billing cycle.

           The Agency had 131 new travel cardholders in FY 2010. The
           Finance Branch was able to document that credit checks
           were conducted for all but two of those employees. After we
           brought the lack of documentation for the two employees to
           the attention of Finance Branch officials, they conducted a
           credit check for each employee.

           We reviewed the credit checks conducted by the Finance
           Branch and found that each of the new cardholders with a
           credit score below 660 had a credit limit of $1,000. We also
           found that all but one of the new cardholders with a credit
           score less than 660 also had a $200 cash advance limit.
           This single error in setting the cash advance limit was found
           by the Finance Branch and corrected during the audit.


TRAINING

           OMB Circular A-123, Appendix B, states that all program
           participants, including cardholders and travel card
           managers, must receive travel card training. The general
           training requirements for all travel card programs are that all
           travel cardholders be trained prior to receiving the travel
           card; that travel cardholders receive refresher training at
           least every 3 years; and that travel cardholders certify that
           they have received the training, understand the regulations
           and procedures, and know the consequences of
           inappropriate actions.

           The NLRB does not have a travel card training program.
           According to the Finance Branch officials, employees are
           expected to take the on-line training that is referenced in the
           pamphlet that is provided with the travel card. When we
           reviewed the pamphlet, we could not find an Internet Web
           site address for travel card training.

           Although not mentioned by Finance Branch officials, we also
           reviewed APC 08-04 and found that it provides the location
           for on-line training sponsored by the General Services
           Administration (GSA) and notes that "[t]ravelers should
           familiarize themselves with this helpful site." We reviewed
           the GSA Web site and found that it provides comprehensive
           training and testing as well as a certificate upon completion.


                              9
             We do not believe that noting the GSA Web site in an APC
             meets the OMB requirements for a training program.

Recommendation

             We recommend that the Finance Branch Chief:

             5. Implement a travel card training program that meets
                OMB requirements.


SEPARATED EMPLOYEES

             OMB best practices include establishing controls to ensure
             that travel card accounts are canceled when an employee
             retires or leaves the Agency.

             The Agency does not have written procedures regarding
             separated employees. What occurs when an employee
             separates depends on whether the employee is in a field
             office or at Headquarters. Finance Branch officials stated
             that for field employees, the Office Manager sends an e-mail
             message to the Finance Branch stating that the employee is
             leaving the Agency. The Finance Branch then closes the
             employee's travel card account in the Citibank system and
             requests that the Office Manager shred the travel card.

             Finance Branch officials stated that when Headquarters
             employees separate, NLRB Form 4197, Certification for
             Release of Final Salary Check, is used. If processed
             correctly, the form is routed through the Finance Branch,
             and a Finance Branch official would certify on the form that
             the travel card was returned. The Finance Branch then
             closes the employee's travel card account in the Citibank
             system and shreds the travel card.

             Sixty-nine employees with travel cards separated from the
             Agency during FY 2010. We found that 14 (20 percent) of
             the travel card accounts were closed either before or on the
             day that the employee separated. We also found that 20 (29
             percent) of these accounts were not closed. Below is a table
             of when accounts were closed as compared to the date the
             employee separated from the Agency.




                               10
                                                                    Field
                           Number      Percent Headquarters         Office
Account not closed             20        28.99      4                16
Between 90 and 284 days         4         5.80      1                 3
Between 31 and 90 days          1         1.45      0                 1
Between 8 and 30 days          13        18.84      2                11
Between 1 and 7 days           17        24.64      2                15
On the day of Separation        2         2.90      1                 1
Before separation              12        17.39      7                 5
                               69       100.00     17                52

Recommendation

               We recommend that the Finance Branch Chief:

               6. Implement written procedures for closing separated
                  employees’ travel card accounts.


IMPROPER USE

               The Federal Travel Regulation states that employees are
               required to use the travel card for expenses directly related
               to official travel, but employees may not use the travel card
               for personal reasons while on official travel.

               To determine whether employees used their travel card for
               other than official travel expenses, we reviewed transactions
               with merchant codes that are inconsistent with official
               travel, transactions on weekends and holidays, and
               transactions that occurred in or close to the employee’s duty
               station city. For these transactions, we determined whether
               the employee was on official travel and whether the charge
               was consistent with official travel.

               In total, we identified 534 transactions totaling $22,219.99
               that were not related to official travel. We also identified 44
               transactions totaling $12,789.62 made for official or
               professional expenses that should not have been charged to
               the travel card.




                                  11
Merchant Codes Inconsistent with Official Travel

                As described earlier, merchant codes are established by the
                banks to identify different types of businesses. Although the
                review by Finance Branch officials of the transactions by
                merchant codes appears to be sufficient, we completed a
                similar review of the transactions with a slightly different
                selection criterion. Some of the codes that we used that are
                not used by the Finance Branch included bowling alleys,
                fines, government services, wrecking yards, art supplies, and
                religious stores. We also excluded codes used by the
                Finance Branch such as grocery stores, drug stores, and
                drinking places.

                Our review identified 447 questionable transactions. Of
                those transactions, 352 were also found in the Finance
                Branch's review of transactions by merchant codes.

                After reviewing each of those transactions, we found that 75,
                totaling $3,465.99, appear to be for personal expenses that
                were not directly related to official travel. Forty-one of these,
                totaling $2,797.81, occurred while the employee was on
                official travel. Examples of transactions include purchases
                at theaters, museums, clothing stores, book stores, and auto
                repair facilities.

                We also found that 44 transactions related to case handling
                and other official expenses occurred when the employee was
                not on official travel. These expenses largely consisted of
                continuing professional education and office supplies. The
                Federal Travel Regulation does not give the NLRB the
                discretion to allow employees to use the travel card for these
                types of transactions.

Weekend and Holiday Transactions

                We compared 818 travel card transactions that occurred on
                weekends and holidays against employees' travel claims to
                determine if the transaction occurred while the employee
                was on official travel. We found that 54 weekend
                transactions, totaling $2,920.14 and 4 holiday transactions,
                totaling $1,092.59, were not for official travel. These
                transactions were at gas stations, food stores, hotels,
                restaurants, and car rental agencies. Because these
                transactions had merchant codes similar or identical to



                                   12
                   those for official travel, Finance Branch officials would not
                   identify them as potentially improper transactions.

Local Transactions

                   We also compared 883 transactions made in the employees'
                   duty station city. We tested all of these against employees'
                   travel claims and found that 183 transactions, totaling
                   $5,269.71, were not related to official travel. We also
                   identified 189 transactions, totaling $5,469, that occurred
                   near, but not directly in, the employees' duty station city
                   were not related to official travel. As with the weekend and
                   holiday transactions, Finance Branch officials would not
                   identify these transactions as potentially improper.

Cash Advances

                   Other than the requirement that an employee use the travel
                   card for expenses only related to official travel, we were
                   unable to find any specific guidance on the use of the travel
                   card for cash advances.

                   For the purpose of testing the reasonableness of employee's
                   cash advance activity, we determined that 4 days before
                   travel would be a reasonable time period as to be generally
                   related to official travel. For the amount, we compared the
                   amount of the cash advance to the amount that the
                   employee was reimbursed.

                   We tested all 192 cash advance transactions totaling
                   $27,035.40 from 66 employees who had cash advances. The
                   table below details the testing results:


Result                       Transactions      Percent      Amount         Percent
Related to official travel            163          84.90    23,032.80          85.19
Not related to official
travel                                  16          8.33      2,148.35             7.95
Amount exceeds typical
expenses                                   6        3.13        344.75             1.28
Between 5 and 8 days
before travel                            6          3.13     1,407.50           5.20
After travel period                      1          0.51       102.00           0.38
   Total                               192        100.00    27,035.40         100.00




                                      13
Recommendation

             We recommend that the Finance Branch Chief:

             7. Implement a written policy containing specific guidance
                for the use of cash advances.


MANDATORY USE

             Employees are required by the Federal Travel Regulation to
             use the Government contractor-issued travel cards for
             official expenses unless an exemption exists. Employees are
             exempt from this requirement if they travel five times a year
             or less. Agency officials stated that no other employees had
             been granted an exemption.

             A statistical sample of hotel and rental car charges was
             tested to determine whether travel cards were used as
             required. A statistical sample was used because we believed
             that the likelihood of identifying employee misconduct that
             would result in disciplinary actions was low. The database
             contained 2,668 transactions related to lodging and car
             rental expenses. A 90 percent confidence rate resulted in a
             sample size of 78 items. The 90 percent confidence level is
             consistent with Government Accountability Office guidance
             and our expected deviation rate. The results of our test can
             be projected to the population.

             We compared the sampled lodging and car rental expenses to
             the employee’s travel card activity to determine whether
             those charges were paid using the travel card. We also
             reviewed the Citibank cardholder database to determine
             whether the traveler had a travel card and reviewed the
             employee’s travel history to determine whether, based on
             their travel history, they should have had a travel card.

             We found that 23 percent of the hotel and rental car
             expenses were not charged to the employees' travel card as
             required by the Federal Travel Regulation. We observed that
             three of the employees involved in those transactions
             reported his or her travel card missing and one should have
             been issued a travel card, but had not.




                               14
Recommendation

             We recommend that the Finance Branch Chief:

             8. Implement written procedures to monitor whether
                employees are using their travel card for official travel
                expenses.


REBATES

             The NLRB receives a quarterly rebate from Citibank that is
             based on net cardholder charge volume. We reviewed these
             rebates to determine whether the rebates were recorded
             accurately and timely into the Agency’s financial
             management system and supported by documentary
             evidence.

             The Agency received quarterly payments totaling $8,379.51
             in FY 2010. These amounts were recorded accurately and
             timely.




                                15
APPENDIX
